No.__________
IN THE SUPREME COURT OF THE UNITED STATES
JEFFREY FAY PIKE, PETITIONER
V.

UNITED STATES OF AMERICA
_____________
ON PETITION FOR WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE FIFTH CIRCUIT

_____________
CERTIFICATE OF SERVICE

_____________
The undersigned, an attorney and a member of the Bar of this Court, certifies that
pursuant to Supreme Court Rule 29.3 he served Jeffrey Pike’s Motion for Leave to Proceed
In Forma Pauperis and Petition for Writ of Certiorari on Counsel for the United States:
The Honorable Jeffrey Wall
Acting Solicitor General of the United States
U.S. Department of Justice
950 Pennsylvania Avenue NW, Room 5616
Washington, D.C. 20530
(202) 514-2201
Service was made by enclosing a copy of the Motion and a copy of the Petition in an
envelope addressed to the Solicitor General and then depositing the envelope in the United
States mail at San Antonio, Texas, on November 27, 2020. A copy of the petition was also
mailed to Assistant U.S. Attorney Joseph H. Gay Jr. at 601 N.W. Loop 410, Suite 600, San

Antonio, Texas 78216. Counsel further certifies that all parties required to be served have
been served.

/s/ PHILIP J. LYNCH
Counsel of Record for Petitioner

